<html>
<title> - PENDING LEGISLATION AND DISCUSSION DRAFT OF THE RECLAMATION WIFIA</title>
<body><pre>[Senate Hearing 115-519]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-519

   PENDING LEGISLATION AND DISCUSSION DRAFT OF THE RECLAMATION WIFIA

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON WATER AND POWER

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 3001
                                H.R. 132
                               H.R. 1967

                                  AND

   S. ___ , DISCUSSION DRAFT OF THE RECLAMATION WATER INFRASTRUCTURE 
                   FINANCE AND INNOVATION ACT OF 2018

                               __________

                             JUNE 13, 2018
                               __________


                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
30-616 PDF                WASHINGTON : 2019         
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota
                                 ------                                

                    Subcommittee on Water and Power

                          JEFF FLAKE, Chairman

JOHN BARRASSO                        CATHERINE CORTEZ MASTO
JAMES E. RISCH                       RON WYDEN
MIKE LEE                             BERNARD SANDERS
BILL CASSIDY                         JOE MANCHIN III
ROB PORTMAN                          TAMMY DUCKWORTH
SHELLEY MOORE CAPITO                 TINA SMITH

                      Brian Hughes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                Lane Dickson, Professional Staff Member
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
          Camille Touton, Democratic Professional Staff Member
           Spencer Gray, Democratic Professional Staff Member


                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Flake, Hon. Jeff, Subcommittee Chairman and a U.S. Senator from 
  Arizona........................................................     1
Cortez Masto, Hon. Catherine, Subcommittee Ranking Member and a 
  U.S. Senator from Nevada.......................................     1

                                WITNESS

Petty, Hon. Timothy R., Assistant Secretary for Water and 
  Science, U.S. Department of the Interior.......................     7

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

(The) Confederated Tribes of the Colville Reservation:
    Letter for the Record........................................     5
Contra Costa Water District:
    Letter for the Record........................................    30
Cortez Masto, Hon. Catherine:
    Opening Statement............................................     1
East Bay Regional Park District:
    Letter for the Record........................................     3
Family Farm Alliance:
    Letter for the Record........................................    35
Feinstein, Hon. Dianne:
    Statement for the Record.....................................    21
Flake, Hon. Jeff:
    Opening Statement............................................     1
Glenn-Colusa Irrigation District:
    Statement for the Record.....................................    69
H.R. 132, the Arbuckle Project Maintenance Complex and District 
  Office Conveyance Act of 2017..................................    50
H.R. 1967, the Bureau of Reclamation Pumped Storage Hydropower 
  Development Act................................................    54
Kittitas Reclamation District:
    Letter for the Record........................................    73
Northern California Water Association:
    Statement for the Record.....................................    75
Petty, Hon. Timothy R.:
    Opening Statement............................................     7
    Written Testimony............................................     9
    Response to Question for the Record..........................    68
Poseidon Water:
    Letter for the Record........................................    77
Roza Irrigation District:
    Letter for the Record........................................    80
S. __ , Discussion Draft of the Reclamation Water Infrastructure 
  Finance and Innovation Act of 2018.............................    56
S. 3001, the Contra Costa Canal Transfer Act.....................    42
Sites Project Authority:
    Statement for the Record.....................................    37


 
           PENDING LEGISLATION AND DISCUSSION DRAFT OF THE RECLAMATION WIFIA

                              ----------                              


                        WEDNESDAY, JUNE 13, 2018

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:00 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Jeff Flake, 
presiding.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake [presiding]. This hearing of the Subcommittee 
on Water and Power will come to order.
    The purpose of today's hearing is to receive testimony on 
three Bureau of Reclamation bills as well as a discussion draft 
of legislation relating to the Water Infrastructure Finance and 
Innovation Act (WIFIA) program.
    Two of the bills before us today, S. 3001 and H.R. 132, 
would convey ownership of facilities from the Federal 
Government to water districts that have paid for them in full 
and are currently managing them. These are win-win bills that 
allow for local control of water resources and reduce costs to 
the Federal Government. The third bill that we are considering 
is H.R. 1967 which will ensure pumped storage projects on 
Reclamation facilities are not subject to two separate 
permitting processes. Finally, we will examine the discussion 
draft which would open up the WIFIA program to water supply 
projects selected by the Bureau. Last year the Subcommittee 
hosted a roundtable to discuss challenges with financing water 
supply infrastructure, and this is one of the ideas that came 
up as a way to support state and local government-led water 
projects.
    I look forward to hearing from the Administration on the 
discussion draft and working with my colleagues to ensure that 
taxpayers are protected as this concept moves forward.
    With that, I will turn to the Ranking Member, Senator 
Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Senator, and good morning.
    Our hearing today, as you heard, is two-fold. First, a 
legislative hearing to discuss Title II transfer proposals for 
S. 3001 and H.R. 132, and H.R. 1967, legislation that would 
create a Pumped Storage program for Reclamation. We will also 
consider a discussion draft on a Water Infrastructure Finance 
Innovation Act model for water projects. The issue of title 
transfer is one that the Committee is actively discussing and 
the parameters that define which projects make for ideal 
candidates for title transfer are important.
    The legislation before us has checked these boxes. S. 3001 
and H.R. 132 seek to transfer those facilities that are already 
operated and maintained by the water districts that seek the 
title. The water districts have completely repaid their 
projects. They have worked collaboratively with stakeholders in 
the region, and there is no opposition to the transfer of these 
facilities.
    I would like to submit for the record a letter of support 
from the East Bay Regional Park District for Senate bill 3001.
    [The information referred to follows:]
    
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cortez Masto. The discussion draft complements the 
legislation we are considering. The discussion draft proposes a 
financing mechanism for Reclamation-like water projects, 
similar to the EPA's WIFIA program. It is a potential tool that 
water managers can use to finance upgrades and maintenance to 
water projects for which they own title.
    Assistant Secretary Petty, I look forward to hearing your 
views on how you think water managers will utilize a WIFIA-like 
program for Reclamation.
    H.R. 1967 would give Reclamation exclusive jurisdiction 
over allowing pump storage development at projects that propose 
to use more than one Reclamation reservoir. This bill affects 
one active project, located in the State of Washington, that is 
currently going through both FERC licensing and Reclamation 
leasing.
    Well-sited pump storage is a promising opportunity for long 
duration storage on the grid.
    The recent hydropower vision report in which the Department 
of Energy participated concluded that over 16 gigawatts of new 
pumped storage capacity is feasible nationwide by 2030. This 
kind of storage will be essential to accelerate our path to a 
clean energy economy that integrates more variable wind and 
solar. That said, while reducing duplicative permitting can be 
a matter of good government, I want to draw attention to the 
need to protect tribal interests affected by this bill. Tribes 
affected by the flooding of their homelands and fisheries at 
Grand Coulee now filled by Lake Roosevelt have a number of 
important protections in place under FERC licensing. I 
understand that the bill's proponents and tribes in Washington 
are engaging on potential amendments to address this concern.
    I want to enter into the record a letter from Chairman 
Marchand of the Colville Tribes to this effect.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cortez Masto. And I want to note that Senator 
Cantwell has made clear she wants this issue addressed before 
marking up this bill.
    Thank you, Assistant Secretary Petty, for joining us today. 
I look forward to your testimony and our discussion.
    Senator Flake. Thank you, Senator Cortez Masto.
    As our only witness, he is looking a little lonely there.
    [Laughter.]
    Tim, Dr. Petty, knows this process well having been on all 
sides of this issue. He is Assistant Secretary for Water and 
Science at the U.S. Department of the Interior.
    Thank you for joining us today, and you are now recognized 
for your testimony.

  STATEMENT OF HON. TIMOTHY R. PETTY, ASSISTANT SECRETARY FOR 
       WATER AND SCIENCE, U.S. DEPARTMENT OF THE INTERIOR

    Dr. Petty. Well, thank you both, Chairman Flake, Ranking 
Member Cortez Masto.
    Again, my name is Tim Petty. I'm the Assistant Secretary 
for Water and Science at the Department of the Interior. Thank 
you for the opportunity to provide the views of the Department 
on the multiple bills and the draft legislation proposal 
pending before the Subcommittee today.
    The Department supports each of the three bills and we 
cannot formally endorse a proposed still-in-draft form; 
however, I believe the discussion draft effort to expand WIFIA 
to include projects of interest to the Bureau of Reclamation 
could go a long way to provide much needed capital to water 
projects throughout the arid West.
    Starting off with Senate bill 3001, as introduced by 
Senator Feinstein, the Contra Costa Canal Transfer Act directs 
the Secretary to transfer and convey to the Contra Costa County 
Water District, all rights, titles and interests to the United 
States in and to the Contra Costa Canal. It includes the 
entirety of the Contra Costa Canal unit at the Central Valley 
Project, and of course, all the interest in lands associated 
within that unit.
    While the Senator's staff and the water district and the 
Department of the Interior are still finishing up final 
refinements, we are pleased to fully support this legislation.
    The second bill, as introduced by Congressman Cole, H.R. 
132, the Arbuckle Project Maintenance Complex and District 
Office Conveyance Act, also transfers a Reclamation Project. In 
this case, it is to the Arbuckle Master Conservancy District in 
Murray County, Oklahoma, and the Department also supports this 
legislation. The Department has an active title transfer 
program and supports transferring certain Reclamation project 
facilities to non-federal entities, particularly in cases where 
transfer could create opportunity, not just for those who 
receive the title, but for the other stakeholders and the 
public as well. This is also consistent with the broader aims 
that the Administration's title transfer legislation proposal 
transmitted to Congress in February of this year which is still 
under consideration.
    We also support H.R. 1967, the Bureau of Reclamation's Pump 
Storage Hydropower Development Act, and have worked with 
Congressman Noem and many other members on both aisles in the 
House to craft this bill. The goal of this legislation is to 
streamline the development and permitting of non-federal, pump 
storage hydroelectric projects on Reclamation reservoirs. We 
see this bill as providing opportunity for future pump storage 
advancement and to streamline the permitting process which may 
encourage the development of more of these type of projects. As 
stated at previous hearings on hydropower-related issues before 
the Subcommittee, Reclamation will continue to review and 
assess potential new hydropower projects that provide a high 
economic return for the nation that are both clean and energy 
efficient and can be accomplished in accordance with protection 
of both fish, tribal, the environment and Reclamation concerns.
    Finally, Mr. Chairman, let me turn my attention to the 
discussion draft designed to expand WIFIA to include water 
projects selected and recommended by the Reclamation 
Commissioner. Specifically, the proposed legislation builds on 
EPA's previously authorized WIFIA programs to allow EPA to 
approve secured loans for projects that are determined by the 
Secretary and the Commissioner to meet the eligible criteria 
for non-federal water infrastructure projects and would 
generate additional water supplies. The benefit of this 
approach includes avoiding redundancy among the agencies and 
increasing efficiencies by allowing agencies to continue to 
operate within their respective areas of expertise.
    Continuation of EPA's role in evaluating and approving 
secure loan builds on the expertise of that specific agency 
that has already been implemented within WIFIA rather than 
requiring multiple agencies to support that function 
individually. Likewise, providing authority to the Commissioner 
of Reclamation determined which non-federal water 
infrastructure project would be considered by EPA utilizing 
Reclamation's significant expertise in identifying these type 
of projects. My written testimony provides some constructive 
ideas to improve this discussion draft. I appreciate the work 
that the Committee is doing to develop this legislation that 
will assist in providing financial assistance to non-federal 
water projects and possibly some transfer work operations.
    This concludes my remarks. Mr. Chairman, Ranking Member, I 
would be happy to take any questions that you may have. Thank 
you.
    [The prepared statements of Dr. Petty follow:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Flake. Thank you, Dr. Petty.
    Before turning to questions, I ask that the statement of 
Senator Feinstein on S. 3001 be made part of the record, 
without objection.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Flake. Dr. Petty, in your testimony on the Contra 
Costa Canal Transfer project, you mention revenues from 
contracts that currently come to the Treasury would be 
transferred by this bill. Can you provide additional detail 
about the contracts and the lost revenue that you are 
referencing?
    Dr. Petty. Yes, for sure, Senator.
    I've already had some conversations with your staff, 
specifically. We are happy to give you the details.
    Just for reference, there's like two or three specifically 
that have, through the years, like a parking lot to a Starbucks 
which is partly on Reclamation land at this point when we did 
our FONSI. There is another small business that also has some 
access on the property as well as a back road development to a 
housing project that's there.
    So, we're looking at like $6,700 a year revenue that we 
gain from those different kind of aspects, not adding up to 
more than $100,000, less than $100,000 easily, a year. So I am 
happy to give you all those details as we go forward in those 
areas.
    Senator Flake. Thank you.
    Now, you also testified earlier this year on a bill that 
would allow the Bureau to carry out title transfers on 
facilities like the two before us today, ones that are really 
low-hanging fruit, without requiring an act of Congress.
    Based on your understanding of Senator Risch's title 
transfer legislation, I know that you understand it well, would 
both of these transfers qualify for the administrative process 
in that proposal?
    Dr. Petty. Yes, just to get into some of the highlights. 
There are just so many opportunities that many of these, the 
perfect example of Contra Costa and even Arbuckle that started 
in 1962. They finished complete payment in full by 2012. The 
majority of those have already been transferred over. There's 
just those nuance components that we will work through the 
details. We want to do our due diligence within the 
Administration to make sure we do a complete FONSI.
    We do any type of EIS process so that it's clear of when we 
do that full transfer that both Congress has the full 
understanding of what that is entailed so we can have those 
full good conversations and make that complete transfer made 
available.
    Senator Flake. Thank you.
    The Reclamation WIFIA discussion draft would authorize the 
Bureau to select projects that are eligible for loans that the 
EPA would administer. I assume the idea here is to prevent 
duplication of costs and personnel by standing up a new program 
when EPA already executes these type of loans. Conceptually, 
this may sound like a good idea, but it could be complicated to 
implement.
    Has the Bureau spoken to the EPA about the role each agency 
might break down if something like this was enacted? How would 
this implementation work?
    Dr. Petty. Yes, Senator.
    Some actual really good examples, but in the big picture 
our Denver Office of Reclamation has already been interacting 
with EPA on a number of these discussions. We like the idea 
that of the loan capability because WIFIA has been within EPA 
for a long time.
    They've got the resources and capabilities, but there's 
projects within Reclamation that we feel that we could either 
collaborate well with EPA and have those discussions, even as 
an example of that is maybe having a staff of Reclamation being 
on, maybe, like the Board of Review at EPA when they review who 
qualifies for any WIFIA programs and if there's any type of 
connection with other organizations with whether it's U.S. Army 
Corps of Engineer, Reclamation and EPA actually working 
together brings capabilities and highlights that actually make 
sense.
    Senator Flake. Would any additional employees be necessary 
at Reclamation if EPA implements these programs?
    Dr. Petty. That's going to be a good question. As we look 
into how the draft really develops, we'll be able to answer any 
of those questions as what kind of resources for Reclamation. 
We already have an existing WaterSMART program that actually 
gives out grants that we have a really formal process that we 
go through that may have those same kind of capabilities.
    So, the duplication, I can't imagine being extensive of 
requirements for new staff because we already have expertise in 
how we actually implement the WaterSMART which has been very 
successful in the Western states already. It's those kind of 
combinations that we would look into as the Administration 
considers the legislation that you're working to put together.
    Senator Flake. Alright. Thank you.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you, Dr. Petty.
    Let's stay on the WIFIA discussion draft proposal. I 
understand the projects eligible for the WIFIA funding must be 
non-federal. How do you see the program intended to fund non-
federal water projects complementing the mission of Reclamation 
projects which are federally owned?
    Dr. Petty. I asked that exact same question to my staff as 
well, and I think it's a very good question.
    As an example of what their thoughts were, even interacting 
with EPA on some of these components, is in the area of what is 
what we're also talking about are the title transfers, right?
    Senator Cortez Masto. Right.
    Dr. Petty. There's a lot of small projects that actually 
need resources that Reclamation just does not have the 
resources to help that could actually add water supply. Part of 
that combination of why we believe that title transfer is 
important is that it gives those smaller projects the ability 
to take title and then do their own system of investing into 
these areas.
    With the concept of why water supply is expansion 
incapable, something like WIFIA might have the possibility 
within those frameworks of saying, okay, it's no longer non-
federal, right? It becomes a non-federal project and then 
having the capabilities of helping them to shore up some 
capabilities of adding to their water supply is just a concept 
or an idea that would be useful in that kind of combination.
    Senator Cortez Masto. Okay, thank you.
    I know a general concern of loan programs is ensuring that 
the taxpayer funding is protected. How would Reclamation ensure 
that, should they have the authority, that you recommend 
projects that are of the best interest and investment to the 
taxpayer?
    Dr. Petty. Yeah, another great question.
    So, very much of a process that we go through is through 
the findings process, referred to like a FONSI as well as all 
of our EIS requirements to look at the environmental 
assessments that we do before any aspect of title transfer 
takes place. It's a very open process, it allows all the 
stakeholders and community to be involved of what is trying to 
be accomplished and obviously the Congress is very much 
engaged.
    This one, each bill coming up and testifying on the title 
transfer can be expedited to some extent if a title transfer 
package is implemented so that you would have continual access 
to see how we are processing this, but we don't have to come up 
and do onesies and twosies every time a title transfer has come 
due as infrastructure is even getting to that older 
infrastructure age, so many of these projects are from the 
'50s, '60s and '70s. Just to start looking at each one and 
bringing it up here for each one would become all-consuming.
    Senator Cortez Masto. Okay. And do you believe that 
Reclamation has the capacity to implement a WIFIA-like program?
    Dr. Petty. I think there's very much room for discussion 
and this is what I really want to be able to do with both of 
you as the Chair and Ranking Member of the Subcommittee on 
working through that as we tighten up and look at the title 
transfer capability, but the WIFIA program specifically, we, as 
the Administration, don't want to create more systems 
bureaucracy if not necessary. But at the same time if we can 
actually help do what our ultimate goal is, to actually provide 
water supply to a very arid communities out West, then, I 
think, we need to make those efforts to see how we can help.
    Senator Cortez Masto. Great, thank you.
    Let me talk a little bit about the pump storage and tribal 
communities.
    Dr. Petty. Yup.
    Senator Cortez Masto. How would Reclamation ensure that 
tribal interests and homelands are protected in developing a 
Reclamation pump storage permitting program?
    Dr. Petty. Yes, a very, very great question and I think 
even the process that we're working with, even the capabilities 
up in Washington State in engaging with the tribes, allowing 
them to be very much part of that specific process of what that 
entails.
    I know that there's a number of interests as well from the 
tribes of actually trying to provide more water resources to 
some of those arid areas and pump storage, whether it's Banks 
Lake up in Washington State that we're referring to, making 
sure that they're very much part of the program because they 
have a high interest of what that entails for that water 
resource, especially in hatcheries and other capabilities that 
they're very interested in.
    Senator Cortez Masto. Thank you.
    Dr. Petty, thank you for being here this morning. I look 
forward to working with you, and I appreciate the comments.
    Dr. Petty. Yeah, likewise. Thank you, Senator.
    Senator Flake. Thanks.
    Continuing on pump storage, it is daunting enough to have 
one federal permitting process. To have to go through two is, 
obviously, a major disincentive. About how many potential 
instances of this double regulation exist across Bureau 
projects? Is it common? How common is it to have upper and 
lower reservoirs with different authorizations required?
    Dr. Petty. You know, Senator, I think part of the concept 
of pump storage has been around a long time but there's not 
really been, what I would call, a huge effort to really say 
what would happen if there's consideration.
    And so, as more Western states and communities start to 
think about utilizing pump storage and actually new technology 
that is actually being developed with those kind of 
capabilities, I think there's a lot of interests that are 
taking place, for sure, in each of the states. They've come to 
Reclamation to talk about those concepts.
    Banks Lake is a good example of those kind of areas. I know 
working with Senator Risch in Idaho there were some other 
projects that pump storage would have some incredible 
capability that would allow, not only pump storage, but would 
give capabilities that we're talking about as well in areas of 
aquifer recharge, of capabilities of very high seasonal periods 
where we have flood impacts that are huge that if there's ways 
to actually mitigate and manage during those really peak 
periods that would benefit all the communities in those areas 
from everything from flood impact to actually water management 
and fishery capacity.
    It has a lot of capabilities into the future. We just need 
to be working together on how we're going to implement and look 
through those, but I know Reclamation has those capabilities, 
the technologies and the engineering to really be able to 
openly communicate some of those good options.
    Senator Flake. We often hear from entities pursuing title 
transfer of Reclamation facilities that they manage. One of the 
main reasons for doing so is access to capital.
    How do you think that transferring title to eligible 
facilities and some kind of financing mechanism will help 
address some of the aging infrastructure challenges that are 
being faced with the Bureau projects?
    Dr. Petty. Right off the bat what comes to mind is what 
you, even in your opening statement, talked about, not only the 
low-hanging fruit but there are just so many projects that we 
just don't have the resources to actually help them because 
we're dealing with bigger projects that seem to consume a lot 
of the allocated resources that we have.
    And so, the idea of working in the title transfer, it 
allows these projects that are really desperate to actually 
upgrade their infrastructure, that allows them to say, we have 
that ability to start managing it ourselves and then gain that 
resources that our list is so long that it's like we're not 
going to get to you for a long time, if ever. That allows them 
to move forward on helping themselves in these infrastructure 
projects.
    Senator Flake. Thank you.
    Senator Cortez Masto.
    Senator Cortez Masto. Just one follow-up, and I am curious. 
How do you delineate projects or facilities that should not be 
candidates for title transfer?
    Dr. Petty. I think the best part of that process is the 
stakeholders. Those stakeholders need to be coming together, 
talking through exactly what it is that they need to move, 
whether it's beneficial to that community and to either that 
water district or that canal company that's advantageous, not 
only to the canal company, but to the community at large and 
where that community can go. And so, that open process, I 
think, needs to be that key part of making sure, up front, that 
it is a collective that is agreeing to yeah, if we could 
actually receive title, that it will allow that community to 
grow and flourish in all of those areas.
    Senator Cortez Masto. Okay, thank you.
    Dr. Petty. You are welcome.
    Senator Flake. Dr. Petty, thank you for making this an 
efficient hearing.
    [Laughter.]
    We appreciate the Administration's views on this.
    We have received letters on several of these proposals, 
including from the Colville Tribes, Contra Costa Water 
District, Family Farm Alliance, and Sites Reservoir Project 
Joint Powers Authority (JPA). With unanimous consent, these 
will be made part of the hearing record.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
 
                      CONTRA COSTA WATER DISTRICT

                Canal Rehabilitation Feasibility Studies

                   FINAL REPORT -- JUNE 2014

    The complete report can be found on the Committee's website 
at: https://www.energy.senate.gov/public/index.cfm/2018/6/
subcommittee-on-water-and-power-legislative-hearing-06-13-18.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Flake. Any additional questions may be submitted 
for the record before the close of business tomorrow.
    The record will be open for two weeks. We would appreciate 
you responding promptly to any questions that come your way.
    With the thanks of the Subcommittee, this hearing is now 
adjourned.
    [Whereupon, at 10:25 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                [all]
</pre></body></html>
